In its November 17, 2004 response to the draft report, NPS concurred with the findings
and recommendations and stated that it would take immediate steps to implement the first
six recommendations. NPS planned to implement Recommendation 7, to realign its
budget requests, once all other recommendations were completed and accuracy of
expenditure reporting showed significant improvement. Based on this response, we
considered all seven recommendations as resolved but not implemented and referred
them to PFM for tracking of implementation.

Scope and Methodology

The scope of our review was limited to determining whether NPS implemented the
recommendations as reported. To accomplish our objective, we reviewed the supporting
documentation that NPS officials submitted to support implementation and closure of the
recommendations. We also interviewed and requested information from NPS personnel
to support implementation of the recommendations. We did not perform any site visits or
conduct any detailed audit fieldwork to determine whether the underlying deficiencies
that were initially identified have been corrected.

This review was not conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

Conclusion

At the exit conference on July 27, 2006, we informed NPS officials that we considered
Recommendations 1, 2, and 4 as resolved and implemented and Recommendations 3, 5,
6, and 7 as resolved but not implemented. NPS should provide PFM with a plan for
actions to be taken to implement these recommendations, including target dates and title
of responsible officials by August 31, 2006.

Responding to the Report

We request that PFM reinstate Recommendations 3, 5, 6, and 7 and take appropriate
follow-up action. We also request that PFM inform us of the actions taken by NPS
regarding these recommendations. If you have any questions about this report, please
contact me at (303) 236-9243.

cc:    Audit Liaison Officer, Department of the Interior
       Audit Liaison Officer, Assistant Secretary for Fish, Wildlife, and Parks
       Audit Liaison Officer, National Park Service
       Focus Leader for Management Control and Audit Follow-up
       Branch Manager, Asset Management Program National Park Service




                                            2
                                                    Appendix 1


STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS

Recommendation         Status              Action Required


     1, 2, 4        Resolved and     No further action is required.
                    Implemented


  3, 5, 6, and 7    Resolved and     We are requesting the Office of
                   Not Implemented   Financial Management, Office
                                     of Policy, Management and
                                     Budget, to reinstate the
                                     recommendations. The
                                     Director of NPS should
                                     provide a plan identifying
                                     actions to be taken, target dates
                                     for implementation, and titles
                                     of officials responsible for
                                     implementation.




                           3
                                                                                  Appendix 2

                      RESULTS OF VERIFICATION REVIEW
Appropriately Implemented
  Recommendation 1: “Direct the park units to comply with the policy developed by
  the Comptroller to accurately account for individual work efforts.”

         In March 2005, NPS issued a Memorandum that directed all Regional Directors,
         Regional Budget Officers, and the Associate Director, Park Planning, Facilities &
         Lands to implement a policy to accurately account for individual work efforts. We
         consider this recommendation resolved and implemented.

  Recommendation 2: “Disseminate the definitions of facility operations and facility
  maintenance in the NPS Budget Justifications to all NPS facility maintenance
  divisions and related financial program staff to facilitate greater understanding of the
  terms and how they should be used.”

         In March 2005, NPS disseminated the definitions of facility operations and facility
         maintenance in the NPS Budget Justification to all NPS facility maintenance
         divisions and related financial program staff as an attachment to a NPS Comptroller
         Memo. We consider this recommendation resolved and implemented.


  Recommendation 4: “Provide training to employees on how to classify work efforts as
  either facility operations or facility maintenance. Also, provide training to employees
  on how to select the appropriate accounting code for their time input documents
  based on these classifications.”

         NPS provided training to 517 employees from FY2004 to FY2005 on how to
         classify work efforts as either facility operations or facility maintenance. The
         training also addressed the selection of appropriate accounting codes. This training
         was accomplished by classroom and by electronic training using the Asset
         Management Process/Facility Software Management System. We consider this
         recommendation resolved and implemented.




                                               4
Not Implemented

  Recommendation 3: “Require park units to use time input documents to capture
  facility maintenance efforts accurately in the time accounting system. Employees’
  time must be reported against accounting codes that accurately reflect the work effort
  expended.”


  Recommendation 5: “Establish a monitoring process to ensure that facility
  maintenance expenditures are being accurately captured and reported. For example,
  require the regions to conduct periodic comparisons of park facility maintenance
  expenditures against park facility maintenance work efforts and against budget
  planning documents and request explanations for discrepancies.”


  Recommendation 6: “Hold park managers accountable for ensuring the accuracy of
  their reporting including taking action against park managers who fail to properly
  account for facility maintenance expenditures.”


  Recommendation 7: “Realign the budget request to more closely reflect the actual
  facility operations and facility maintenance obligations within the facility operations
  and maintenance sub-activity. This realignment should not be made until facility
  operations and facility maintenance obligations have been accurately recorded in the
  accounting system for at least one fiscal year.”

         Although recommendations 3, 5, 6, and 7 were reported to us as implemented,
         neither PFM nor NPS could provide documentation to support that the
         recommendations were actually implemented. Therefore, we consider these
         recommendations resolved but not implemented and are requesting that PFM
         reinstate Recommendations 3, 5, 6, and 7, and take appropriate follow-up action.




                                              5
